NO.

 

IN THE SUPREME COURT OF THE UNITED STATES
GILBERTO MEDINA-JASSO, Petitioner,
vs.

STATE OF GEORGIA, Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW the Petitioner, Mr. Gilberto Medina-Jasso; and, pursuant to
Sup. Ct. Rule 39.1, asks for leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
1) In pre-trial and trial proceedings, Petitioner was represented by appointed
counsel due to his indigent status. See, O.C.G.A. § 15-1-5; Uniform
Superior Court Rule 29.2; Hawkins v. State, 222 Ga. App. 461 (1996).
2) The Gwinnett County Superior Court in Georgia appointed the
undersigned to represent Petitioner on appeal. See, O.C.G.A. § 15-1-5;
Uniform Superior Court Rule 29.2. A copy of the appointment order is
attached as Exhibit 1. ' '

3

YS

Petitioner remains indigent and wishes to pursue a writ of certiorari from
this Court to the Court of Appeals of Georgia, which affirmed his judgment

of conviction on February (12, 2020 and denied his. motion for
reconsideration on March 20, 2020. The Georgia Supreme Court denied
his petition for a writ of certiorari on October 19, 2020.
WHEREFORE, Mr. Medina-Jasso asks this Court to grant his motion and
allow him to proceed in forma pauperis.
Dated this 18th day of March, 2021.

Respectfully submitted,

Aamgs lag—
FRANCES KUO
Supreme Court Bar No. 299215
Frances Kuo
214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Tel: (404) 378-1241
kuoappeal @ gmail.com
Counsel for Mr. Gilberto Medina-Jasso
EXHIBIT 1

IN THE GWINNETT JUDICIAL CIRCUIT
STATE OF GEORGIA

 

 

 

 

STATE OF GEORGIA .
CASE # 14-B-00543-6
ve
GILBERTO MEDINA-JASSO WARRANT #_______
APPLICANT'S FULL NAME
OFFENSE(S).
CURRENT ADDRESS
DEFENDANT'S TELEPHONE NUMBER.

APPOINTMENT OF COUNSEL FOR INDIGENT PERSON ~ FOR APPEAL

    

    
      

 

 

CQSTATE COURT CO MAGISTRATE COURT

Qa PROBATE COURT QO JUVENILE COURT © RECORDER'S

     

        

1 superior COURT

 

 

 

The person named above has satisfied the court that s/he is financially unable to employ an attorney and does not
waive an attomey. The attorney designated below shall represent the person and the appointment shall remain in effect
through all courts in the circuit until the case is completed or another attorney is appointed by the court or retained. The
above named shall pay the fees required for application in the Indigent Defense.

FRANCES KUO
Attorney At Law
214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Ga.St.Bar No: 430440
404-378-1241

SO ORDERED this 10th _ dayof June, 2015.

 

 
 

RONNIE K. BATCHELOR, Judge
Gwinnett Superior Court
cf.
Division 6 Frances Kuo Robert Greenwald
Gwinnett County District Attorney's Attorney At Law Attorney At Law
Office 214 Executive Building Suite D
4125 East Trinity Place 485 South Perry Street

Decatur, GA 30030 Lawrenceville, GA 30046
